<html>
<title> - INCREASING THE EFFECTIVENESS OF NON-NUCLEAR SANCTIONS AGAINST IRAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






                    INCREASING THE EFFECTIVENESS OF
                   NON-NUCLEAR SANCTIONS AGAINST IRAN

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON MONETARY

                            POLICY AND TRADE

                                AND THE

                       SUBCOMMITTEE ON TERRORISM

                          AND ILLICIT FINANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-14




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-175 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 

























                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                  Kirsten Sutton Mork, Staff Director
               Subcommittee on Monetary Policy and Trade

                     ANDY BARR, Kentucky, Chairman

ROGER WILLIAMS, Texas, Vice          GWEN MOORE, Wisconsin, Ranking 
    Chairman                             Member
FRANK D. LUCAS, Oklahoma             GREGORY W. MEEKS, New York
BILL HUIZENGA, Michigan              BILL FOSTER, Illinois
ROBERT PITTENGER, North Carolina     BRAD SHERMAN, California
MIA LOVE, Utah                       AL GREEN, Texas
FRENCH HILL, Arkansas                DENNY HECK, Washington
TOM EMMER, Minnesota                 DANIEL T. KILDEE, Michigan
ALEXANDER X. MOONEY, West Virginia   JUAN VARGAS, California
WARREN DAVIDSON, Ohio                CHARLIE CRIST, Florida
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana
             Subcommittee on Terrorism and Illicit Finance

                   STEVAN PEARCE, New Mexico Chairman

ROBERT PITTENGER, North Carolina,    ED PERLMUTTER, Colorado, Ranking 
    Vice Chairman                        Member
KEITH J. ROTHFUS, Pennsylvania       CAROLYN B. MALONEY, New York
LUKE MESSER, Indiana                 JAMES A. HIMES, Connecticut
SCOTT TIPTON, Colorado               BILL FOSTER, Illinois
ROGER WILLIAMS, Texas                DANIEL T. KILDEE, Michigan
BRUCE POLIQUIN, Maine                JOHN K. DELANEY, Maryland
MIA LOVE, Utah                       KYRSTEN SINEMA, Arizona
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              RUBEN KIHUEN, Nevada
WARREN DAVIDSON, Ohio                STEPHEN F. LYNCH, Massachusetts
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 4, 2017................................................     1
Appendix:
    April 4, 2017................................................    37

                               WITNESSES
                         Tuesday, April 4, 2017

Maloney, Suzanne, Deputy Director, Foreign Policy, and Senior 
  Fellow, Center for Middle East Policy, the Brookings 
  Institution....................................................     9
McInnis, J. Matthew, Resident Fellow, the American Enterprise 
  Institute......................................................     7
Ottolenghi, Emanuele, Senior Fellow, Foundation for Defense of 
  Democracies....................................................    10
Taleblu, Behnam Ben, Senior Iran Analyst, Foundation for Defense 
  of Democracies.................................................     5

                                APPENDIX

Prepared statements:
    Maloney, Suzanne.............................................    38
    McInnis, J. Matthew..........................................    46
    Ottolenghi, Emanuele.........................................    52
    Taleblu, Behnam Ben..........................................    81

              Additional Material Submitted for the Record

Hill, Hon. French:
    Written responses to questions for the record submitted to 
      Behnam Ben Taleblu.........................................   104
Perlmutter, Hon. Ed:
    Letter to FBI Director James B. Comey, Jr., Treasury 
      Secretary Steven T. Mnuchin, and U.S. Attorney General Jeff 
      Sessions from Senators Sherrod Brown, Ben Cardin, and 
      Dianne Feinstein, dated March 30, 2017.....................   108
    Washington Post article entitled, ``Blackwater founder held 
      secret Seychelles meeting to establish Trump-Putin back 
      channel''..................................................   110

 
                      INCREASING THE EFFECTIVENESS
                        OF NON-NUCLEAR SANCTIONS
                              AGAINST IRAN

                              ----------                              


                         Tuesday, April 4, 2017

             U.S. House of Representatives,
     Subcommittee on Monetary Policy and Trade, and
     Subcommittee on Terrorism and Illicit Finance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittees met, pursuant to notice, at 2:39 p.m., in 
room 2128, Rayburn House Office Building, Hon. Andy Barr 
[chairman of the Subcommittee on Monetary Policy and Trade] and 
Hon. Stevan Pearce [chairman of the Subcommittee on Terrorism 
and Illicit Finance] presiding.
    Members present from the Subcommittee on Monetary Policy 
and Trade: Representatives Barr, Williams, Pittenger, Huizenga, 
Love, Hill, Emmer, Mooney, Davidson, Tenney, Hollingsworth; 
Moore, Sherman, Foster, and Vargas.
    Members present from the Subcommittee on Terrorism and 
Illicit Finance: Representatives Pearce, Williams, Pittenger, 
Rothfus, Messer, Tipton, Poliquin, Love, Hill, Emmer, Zeldin, 
Davidson, Budd, Kustoff; Perlmutter, Maloney, Lynch, Foster, 
Delaney, Sinema, Vargas, and Gottheimer.
    Chairman Barr. The subcommittees will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittees at any time.
    Also, without objection, members of the full Financial 
Services Committee who are not members of the Subcommittee on 
Monetary Policy and Trade or the Subcommittee on Terrorism and 
Illicit Finance may participate in today's hearing.
    Today's hearing is entitled, ``Increasing the Effectiveness 
of Non-Nuclear Sanctions Against Iran.''
    I now recognize myself for 2\1/2\ minutes to give an 
opening statement.
    As chairman of the Monetary Policy and Trade Subcommittee, 
it is a pleasure for me to join Chairman Pearce and my 
colleagues on the Terrorism and Illicit Finance Subcommittee in 
holding this joint hearing.
    It is no secret that Washington has been deeply divided 
over how to confront Iran's nuclear ambitions both before and 
after implementation of the Joint Comprehensive Plan of Action 
(JCPOA). This hearing, however, is not about the JCPOA per se, 
and I am hopeful that we can find common ground in addressing 
Iran's non-nuclear activities, including terrorism, weapons 
procurements, and regional destabilization.
    Since the agreement's implementation day in January of 
2016, Iran has continued to sponsor Hezbollah and other 
militias in the region. Its support for the Assad regime alone, 
including the use of planes to airlift military supplies, has 
helped claim an estimated 400,000 lives.
    Last April, even President Obama suggested that the 
Iranians were violating the spirit of the deal by engaging in 
these activities. Rather than be deterred, Iran went on in 
October to sentence three Americans to long prison terms on 
bogus charges.
    In January of this year, the country tested a ballistic 
missile, in violation of U.N. Security Council Resolution 2231. 
And this very morning, just as Boeing was announcing new sales 
to Iran, we learned that dozens of Syrian civilians, including 
at least 11 children, were gassed in a chemical weapons attack.
    If Republicans and Democrats can agree that intensifying 
non-nuclear sanctions is key for our national security, then we 
should think of new ways that deepen their impact on Iranian 
behavior. Iran's continued illicit activities underscore that 
we must not be complacent. Non-nuclear sanctions are more than 
a form of condemnation. We should expect them to undermine 
Iran's capabilities and influence Iranian policies.
    In closing, I want to emphasize that U.S. sanctions are 
directed against an authoritarian government, not the many 
ordinary Iranians who denounce terrorism and welcome closer 
relations with our country. These Iranians know the regime has 
failed them for decades, and they know that the only choice for 
Iran is to abandon its anti-Western, anti-Semitic, violent 
extremism. Our sanctions should make that choice as explicit as 
possible.
    The Chair now recognizes the gentlelady from Wisconsin, the 
ranking member of the Monetary Policy and Trade Subcommittee, 
Congresswoman Moore, for 2\1/2\ minutes for an opening 
statement.
    Ms. Moore. Thank you so much, Mr. Chairman.
    And I thank the panel for joining us.
    I have been on record in support of the Joint Comprehensive 
Plan of Action, negotiated and implemented by President Obama 
to derail Iran's nuclear ambitions. That being said, I am going 
to use this time to discuss President Trump's ongoing and 
increasingly problematic foreign and business entanglements.
    PBS reports that Trump engaged in a business deal with a 
money launderer with supposed ties to the notorious Iranian 
Revolutionary Guard Corps, a Mr. Anar Mammadov. The project was 
a hotel in Baku, Azerbaijan. Ivanka was involved, as well.
    That's one example, but these political and financial 
entanglements between ``bad hombres'' and Trump keep cropping 
up. We have a Commerce Secretary who was former vice chair of 
the Bank of Cyprus, a bank that participated in deals with 
unsavory, criminal-backed individuals and the Russian state-run 
bank Sberbank, which is subject to U.S. and EU sanctions.
    We have jaw-dropping allegations that rise at least to a 
probable cause case against Trump associates and family 
members, such as Manafort, Page, Tillerson, Flynn, Stone, 
Ivanka, and her husband, Jared Kushner. These are troubling 
financial ties to the Kremlin, Iran, or the Chinese government, 
saying nothing of his D.C. hotel or the Mar-a-Lago, which are 
gross conflicts that should not be permitted to continue for 
one more second.
    These communities should use our subpoena power to bring 
some of these people in to testify under oath to this joint 
committee so we can get a better understanding of these ties, 
and the American people deserve to know.
    It is a Pyrrhic exercise to go over the JCPOA over and over 
again when the Trump Administration has invited all of the 
world's worst actors into the White House in order to enrich 
him and his family, like this Third-World-like kleptocracy that 
would make Ferdinand Marcos blush.
    And, with that, I yield my remaining 27 seconds to Mr. 
Perlmutter.
    Mr. Perlmutter. I have my own time, so keep going.
    Ms. Moore. Oh, you do? No, I am done. I am yielding back.
    Chairman Barr. Okay. The gentlelady yields back.
    And the Chair now recognizes the gentleman from New Mexico, 
the chairman of the Terrorism and Illicit Finance Subcommittee, 
Congressman Pearce, for 1\1/2\ minutes for an opening 
statement.
    Chairman Pearce. Thank you, Mr. Chairman.
    New to the Financial Services Committee in the 115th 
Congress, the Terrorism and Illicit Finance Subcommittee has 
the direct mission of interpreting to the greatest extent 
possible the financial support networks of national security 
interests. Our new subcommittee is honored to join Chairman 
Barr's Monetary Policy and Trade Subcommittee this afternoon to 
assess the current state of Iran's non-nuclear sanctions.
    First designated as a state sponsor of terrorism in 1984, 
Iran has grown into the global leader in terrorist financing. 
The message is clear: Despite our Nation's best efforts, Iran 
continues to be the foremost sponsor of terrorism globally. 
This is not anecdotal or subjective; the U.S. State 
Department's annual country report on terrorism has continually 
listed Iran as the top illicit financier, and the most recent 
report stated that Iran remains the foremost state sponsor of 
terrorism.
    From its continued support and assistance to the Assad 
regime in Syria, to its financial backing of Hezbollah and its 
reliance on its intelligence and security arms, the Islamic 
Revolutionary Guard Corps, the IRGC, and its elite Quds Force, 
Iran has been near-impervious to U.S. and international 
sanctions. No silver bullet exists to prevent and impede Iran's 
actions. Despite the U.S. and international sanctions, combined 
with a stagnant oil market in 2015, Iran continued to fund and 
supply international terror groups even when it was to the 
detriment of its own people and economy.
    Today's hearing, therefore, begins a much-needed 
conversation: Where has the United States succeeded and where 
has it failed in its targeted actions against Iran? What 
actions, if any, can the Financial Services Committee take? 
What actions should be avoided?
    I thank our witnesses for being here today, and I thank 
Chairman Barr for holding this important joint hearing. I look 
forward to the conversation, and I yield back.
    Chairman Barr. Thank you.
    The Chair now recognizes the gentleman from Colorado, the 
ranking member of the Terrorism and Illicit Finance 
Subcommittee, Congressman Perlmutter, for 2\1/2\ minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    I would like to introduce into the record a letter dated 
March 30, 2017, from Senators Brown, Feinstein, and Cardin to 
James Comey, and also an article from The Washington Post dated 
April 3, 2017, concerning--both of them have as their subjects 
the Islamic Revolutionary Guard Corps that Congressman Pearce 
was just referring to.
    Chairman Barr. Without objection, it is so ordered.
    Mr. Perlmutter. I thank the gentleman from Kentucky. I also 
thank my friend from New Mexico and Ms. Moore from Wisconsin.
    There are several important questions before us today. 
First, I assume my friends on the other side of the aisle are 
going to bring forth some questions about the JCPOA, which I 
call a nuclear nonproliferation agreement. And we just want to 
see exactly how that has transpired or how it has worked so 
far. I think it has reduced nuclear tension in the world, but, 
even so, we all agree Iran and, in particular the IRGC, is a 
real threat and destabilizing force in the Middle East.
    The IRGC is heavily involved in just about every aspect of 
the Iranian economy, including oil, construction, and banking. 
And with vast shell corporations and commercial interests all 
over the world, the IRGC strategically and conspicuously moves 
money through its many front businesses, and we need to 
understand the beneficial ownership of those businesses.
    We also need to understand--to the degree that Russia is 
supporting Iran and the IRGC, we want to see exactly how that 
kind of funding exists. So the new subcommittee that we have 
formed here is Terrorism and Illicit Finance, and we want to 
see the connections to this potential money laundering that is 
going around that is funding terrorism around the globe. And I 
think, in particular, we have to see the activities of the IRGC 
as well as their connection to Russia, which is using Iran as 
kind of a place to advance its interests in the Middle East.
    And, with that, I yield back to the Chair, and I look 
forward to the testimony of our witnesses today.
    Chairman Barr. Thank you.
    The gentleman yields back.
    The Chair now recognizes the gentleman from North Carolina, 
the vice chairman of the Terrorism and Illicit Finance 
Subcommittee, Congressman Pittenger, for a 1-minute opening 
statement.
    Is Mr. Pittenger here?
    Mr. Pittenger is not here, so we will go ahead and turn to 
our witness testimony.
    Today, we welcome the testimony of Mr. Behnam Ben Taleblu. 
He is a senior Iran analyst at the Foundation for Defense of 
Democracies (FDD). Previously, Ben Taleblu served as a 
nonresident Iran research fellow and Iran research analyst at 
FDD. Ben Taleblu frequently briefs Washington audiences on a 
host of Iran-related issues. Ben earned his master's degree in 
international relations from the University of Chicago.
    Mr. J. Matthew McInnis is a resident fellow at the American 
Enterprise Institute, where he focuses on Iran, specifically 
its intentions, strategic culture, military power, and goals. 
Previously, Mr. McInnis served as a senior analyst and in other 
leadership positions for the U.S. Department of Defense, 
including work with U.S. Central Command, from 2006 to 2013. 
Mr. McInnis has a master's degree in European studies from NYU 
and a master's degree in international relations from the Johns 
Hopkins School of Advanced International Studies.
    Dr. Suzanne Maloney is a senior fellow at the Brookings 
Institution. She is deputy director of the foreign policy 
program at Brookings. Dr. Maloney previously served as an 
external adviser to senior State Department officials on long-
term issues related to Iran. Before joining Brookings, she 
served on the Secretary of State's policy planning staff as 
Middle East adviser for ExxonMobil Corporation, and director of 
the 2004 Council on Foreign Relations task force on U.S. policy 
toward Iran. She holds a doctorate from the Fletcher School of 
Law and Diplomacy at Tufts University.
    And Dr. Emanuele Ottolenghi is a senior fellow at the 
Foundation for Defense of Democracies, and an expert at its 
Center on Sanctions and Illicit Finance, focused on Iran. Prior 
to joining FDD, Dr. Ottolenghi headed the Transatlantic 
Institute in Brussels, and taught Israel studies at St. 
Anthony's College, Oxford University. Dr. Ottolenghi obtained 
his Ph.D. in political theory at the Hebrew University of 
Jerusalem.
    Each of you will be recognized for 5 minutes to give an 
oral presentation of your testimony. And without objection, 
each of your written statements will be made a part of the 
record.
    Mr. Behnam Ben Taleblu, you are now recognized for 5 
minutes.

     STATEMENT OF BEHNAM BEN TALEBLU, SENIOR IRAN ANALYST, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Taleblu. Thank you very much, Chairmen Barr and Pearce, 
Ranking Members Moore and Perlmutter, and distinguished members 
of the Committee on Financial Services. On behalf of the 
Foundation for Defense of Democracies, thank you for providing 
me with this opportunity to testify, particularly alongside 
such a distinguished panel.
    Today, I will discuss the Islamic Republic of Iran's non-
nuclear threats and how best to counter them.
    Despite being called comprehensive, the JCPOA nuclear deal 
overshadowing this discussion was anything but. It does not 
address delivery of vehicles for nuclear weapons like ballistic 
missiles. It also does not address Tehran's illicit financial 
activities, support for terrorism, regional destabilization, 
and flagrant human rights abuses.
    These issues constitute Iran's enduring non-nuclear 
threats. They are enduring because they are the same issues 
that have made and kept Iran an international pariah for over 3 
decades. Worse, they are threats that the JCPOA accentuates.
    According to FDD's survey of open-source English and 
Persian language reporting on Iran, Iran has launched up to 14 
ballistic missiles since inking the deal. Such behavior defies 
the annex of UNSCR 2231 codifying the accord. These include two 
upgrades to a solid-fuel, short-range ballistic missile, a new 
medium-range ballistic missile that allegedly has a 
maneuverable reentry vehicle, and a ballistic missile bearing a 
proclamation threatening the state of Israel with genocide.
    According to the former Director of National Intelligence, 
Iran currently possesses the largest arsenal of ballistic 
missiles in the Middle East. This arsenal of lethality is 
enhanced by flight testing and domestic refinement.
    Iran also continues to exemplify the ``state sponsor of 
terrorism'' epithet bequeathed to it by the State Department 3 
decades ago. For the past 5 years, however, Tehran has 
furnished the Assad regime in Syria with money, men, and 
munitions so that it can continue the war against its own 
people. Iran is also creating something of a Shia 
internationale, marshaling zealous Shias from around the 
region, including Iraq, Pakistan, and Afghanistan, to fight and 
die in Syria.
    Elsewhere, Tehran relies on a tried-and-true method: 
distributing low-cost weaponry, like anti-tank missiles, to 
jurisdictions of weak central authority. Nowhere exemplifies 
this better than Yemen. Despite a ban on arms transfers in 
UNSCR 2231, weapons transfers to Yemen have been seized at 
least 4 times by coalition forces.
    Iran's illicit financial activities also continue 
undermining the integrity of the rules-based financial order. 
These activities involve the movements of money to illicitly 
procure parts and technology for Iran's missile program as well 
as sponsoring terrorist activities.
    However, even innocuous-looking transactions may involve 
illicit actors. Iran remains designated by the U.S. Treasury 
Department as a ``jurisdiction of primary money-laundering 
concern.'' The hesitancy exhibited by European banks towards 
doing business with Iran is indicative of this status, in 
addition to their concerns over institutions which lack anti-
money-laundering controls.
    Fortunately, nowhere in the JCPOA is the U.S. restricted 
from using diplomatic, informational, military, and economic 
tools to challenge these activities. By enforcing existing 
sanctions and levying conduct-based nonnuclear ones, Congress 
and the Administration can signal that there is a strategy 
guiding Washington's Iran policy.
    Such a policy would have three goals: punishment for past 
illicit activities; coercion to alter Iran's calculus to cease 
its present bad behavior; and deterrence to forestall 
prospective bad behavior.
    In my written testimony, I have provided four likely 
scenarios that would require coercive economic measures based 
on Iran's existing capabilities and intentions. I also offer 10 
broader recommendations, like new reporting requirements to 
enhance existing sanctions; targeting Iran's IRGC pursuant to 
two additional Executive Orders; using the Global Magnitsky Act 
to target corrupt Iranian entities; and developing graduated, 
sector-specific sanctions on Iran's domestic ballistic missile 
supply chain to neatly complement the web of export controls 
already in place. I can also speak to nonstatutory measures, if 
asked, in the Q and A.
    In my written testimony, I similarly explain and refute 
Iran's claims that such actions violate the deal. They do not. 
These arguments can be overcome if the U.S. adheres to three 
principles: one, calling Iran's bluff and walking away from the 
deal in response to such measures; two, contesting Iran's 
narrative that it is a member of the international community in 
good standing; and three, putting the spotlight on Iran through 
sophisticated use of the bully pulpit.
    Additionally, the U.S. should not fall for arguments about 
a perceived lack of sanctions relief when it has already lived 
by its deal requirements. To quote Adam Szubin of the Treasury 
Department, ``The JCPOA is an international agreement, not a 
cashier's check.''
    While sanctions relief has made it harder to influence 
Iranian behavior, it is still not impossible. Congress and the 
Administration have the capability to push for a change in 
behavior by imposing costs. However, as in most international 
crises, the balance of resolve will matter just as much, if not 
more, than the balance of capability.
    I thank you very much for your time and attention, and I 
look forward to answering your questions today.
    [The prepared statement of Mr. Taleblu can be found on page 
81 of the appendix.]
    Chairman Barr. Thank you.
    Mr. Matthew McInnis, you are now recognized for 5 minutes.

STATEMENT OF J. MATTHEW MCINNIS, RESIDENT FELLOW, THE AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. McInnis. Thank you, Chairman Barr, Chairman Pearce, 
Ranking Member Moore, Ranking Member Perlmutter, and 
distinguished committee members. Thank you for this opportunity 
to testify today on this important issue.
    Some had hoped that after the implementation of the JCPOA, 
Iran would moderate its support to proxy and terrorist groups, 
restrict is ballistic missile testing and cyber activities, and 
refrain from risky and unprofessional actions at sea in the 
Persian Gulf. However, we have seen all of these activities not 
only continue but increase since the nuclear deal.
    As U.S. CENTCOM Commander General Joseph Votel stated in 
testimony before the House Armed Services Committee last week, 
``Iran poses the greatest long-term threat to stability in this 
part of the world.''
    Why is Iran such a disruptive force in the region?
    Since the 1979 Islamic Revolution, reshaping the Middle 
East under its political and ideological image has driven 
Tehran's foreign policy. The wars in Syria, Iraq, and Yemen, 
along with new resources from the nuclear deal, have brought us 
to an inflection point in Iran's strategy in the region. Tehran 
is turning its traditional network of proxies, led by Lebanese 
Hezbollah, into a transnational army that can conduct hybrid 
warfare and operate from Beirut to Basra to Sana'a, with Shia 
militias drawn from across South Asia and the Middle East. 
These forces are led by the IRGC, with an estimated quarter-
million personnel potentially responsive to their direction.
    In addition to proxies, Iran's efforts to dominate the 
region extend to more traditional military forces. Tehran has 
historically lacked sufficient air and land forces to project 
conventional power beyond its borders. Ballistic missiles and 
its asymmetric naval forces in the Persian Gulf have served as 
substitutes. A critical question following the JCPOA is whether 
Iran can or will use its new resources to successfully 
modernize its military and permanently alter the regional 
balance of power in the coming decades.
    So how do we stand up to Iran's destabilizing activities 
and begin to dismantle Tehran's global terror network? The 
United States needs to reinvigorate a well-coordinated 
political, economic, military, and intelligence campaign 
against Iran's malign influence. A better sanctions strategy 
should be nested at the heart of this effort, given at least 20 
percent of Iran's GDP is now under the Guard's control.
    The IRGC owns the state's largest construction firm, 
Khatam-al Anbiya, and holds major stakes in the banking, 
energy, extractive, and manufacturing sectors. The Guard also 
operates most Iranian ports and is deeply involved in the 
commercial shipping and aviation sectors, which are critical 
elements in building and sustaining its proxy and terror 
networks in the Middle East.
    However, Washington needs to ask first what we want to 
accomplish with our sanctions, rather than focusing solely on 
the targets and means. With this in mind, any Iran sanctions 
strategy must first blunt and then diminish the foundations of 
the IRGC's destabilizing activities. Consequently, the United 
States should aim for these five objectives:
    First, we should suppress Iran's military modernization to 
maintain the U.S.'s and our allies' military superiority in the 
region. We should prevent Iran from making major military 
breakthroughs and maintain our deterrence advantage against 
Iran. We should seek to deter Russian and Chinese and other 
sales of the most advanced equipment to Iran through new 
sanctions and prevent any efforts to evade U.N. conventional 
weapons sanctions while they remain.
    Second, we should starve the IRGC's financial fuel to 
weaken the Guard's ability to generate revenue from global 
markets and incentivize international divestment from IRGC-
affiliated businesses.
    Third, we should disrupt the IRGC's logistical abilities, 
including close monitoring of potential new sanctions and 
designations against Iranian commercial aircraft used by the 
IRGC for the illicit transport of weapons and personnel into 
Syria, Iraq, Yemen, and elsewhere.
    Fourth, we should disrupt and deter Iran's ballistic 
missile program. We may not be able to stop the program 
entirely, but we can help push their program more in the box by 
disrupting their technological acquisition through additional 
sanctions.
    Fifth, we should drive down Iran's internal confidence in 
the regime and its policies. To the degree that we can, the 
U.S. should expose, through sanctions, the regime's internal 
contradictions, corruptions, massive expenses on overseas 
adventures, and human rights violations.
    There is an important caveat. Any new sanctions should not 
conflict, at least legally, with the JCPOA. However, any such 
sanctions can and likely should be part of a broader approach 
to shape the negotiating environment for a successor or 
supplementary agreement with Iran to address the key flaws of 
the nuclear deal.
    I appreciate the opportunity to speak on this important 
topic and welcome your questions and comments. Thank you.
    [The prepared statement of Mr. McInnis can be found on page 
46 of the appendix.]
    Chairman Barr. Thank you.
    Dr. Maloney, you are now recognized for 5 minutes.

STATEMENT OF SUZANNE MALONEY, DEPUTY DIRECTOR, FOREIGN POLICY, 
AND SENIOR FELLOW, CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS 
                          INSTITUTION

    Ms. Maloney. Thank you for the opportunity to appear before 
you today. I have submitted a statement for the record, noting 
that Brookings does not take institutional positions on policy 
issues.
    In considering the non-nuclear threats posed by Iran, we 
must also recognize the dividends of the nuclear agreement. The 
accord addressed only one dimension of the Iranian threat, and, 
in those narrow terms, it has succeeded. Amidst the turbulence 
and tragedy that besets the Middle East today, the absence of 
constraints on Iran's nuclear capabilities would magnify the 
risks in terrible ways.
    However, as my fellow panelists have stated, we can't 
ignore the finite ramifications of the deal. Hopes that the 
agreement would jump-start wider moderation in Iran's approach 
to the world have proven unfounded. Instead, Iran has continued 
to do what it has done consistently since 1979, deploying 
violence and subversion to extend its influence across the 
Middle East. It is consolidating a predominant position in the 
region and tentatively reorienting the regional order in its 
favor. As a result, the challenges posed by Tehran to U.S. 
interests and allies remain as relevant and as alarming as 
ever.
    Understanding the motivations behind Iran's regional 
ambitions and its ballistic missile program are vital. 
Historical memory and years of violent challenge to the 
theocracy's existence have stoked an acute, abiding sense of 
insecurity amongst its leadership. Tehran prioritizes regime 
survival above all else, and self-preservation has become 
intertwined with a deeply ingrained conviction that the world, 
led by Washington, is bent on its eradication.
    The consequences of this dystopian vision can be seen in 
Tehran's campaign to cultivate allies and proxies, bolster its 
indigenous deterrent capabilities, expand the revolution's 
strategic death, and deploy violence and subversion across the 
region. Iran's regional adventurism has never enhanced the 
security or prosperity of the Iranian people, but it has helped 
keep the regime in power.
    The experience of the past decade underscores the efficacy 
of sanctions when wielded wisely. Sanctions forced Iran to make 
concessions on its nuclear weapon program. However, it is not 
clear that new authorities are particularly useful or necessary 
for pushing back against Iran's non-nuclear threats.
    The deal left intact significant restrictions on Iran's 
economy. Iran's worst actors, including those associated with 
the Revolutionary Guard, remain designated under existing 
sanctions, tainting, by extension, any company that deals with 
them. The Trump Administration can augment the list of 
designated entities at any time. The primary embargo on U.S. 
trade and investment in Iran criminalizes even the most 
tangential involvement in the Iranian economy by U.S. firms, 
except for specific exemptions.
    And all of these measures benefit from a number of powerful 
force multipliers, including a decade of intensifying 
restrictions and rigorous enforcement that has created a 
culture of compliance in the international business community.
    The success of the nuclear sanctions has fostered the 
perception that these measures can serve as a silver bullet. 
However, there are few guarantees that new measures will 
provide sufficient disincentives to alter Tehran's longstanding 
patterns of regional power projection or revise the broad 
calculus of opportunism and insecurity that underlines its 
policies.
    The long-term track record underscores the unfortunate 
reality: Iran's support for terrorism has never been driven 
primarily or even substantially by resource availability. In 
fact, Iran's most destructive regional policies have been 
undertaken and sustained even at times of epic constraints. 
Sanctions and lower oil prices have provided no remedy to 
Iran's efforts to extend its influence or its substantial 
investment in fueling and fighting conflicts in Iraq and Syria. 
These policies have a very low funding threshold for the 
Islamic Republic and an existential importance to the regime.
    In addition, the sanctions regime that was constructed over 
the 12-year nuclear crisis benefited from an exceptional degree 
of multilateral support and consensus. Compounded by concerns 
beyond the nuclear file, and encouraged by a well-coordinated 
campaign that highlighted the non-sanctions risks to business 
with Iran, many of Iran's major trading partners gradually 
committed to sever economic ties with Tehran.
    Multilateralism is key to sanctions adherence and creates 
an interlocking and often redundant web of pressure that proves 
far stronger and more persuasive than the sum of its parts. At 
this time, Washington does not have, nor can we quickly 
instigate, anything close to the level of multilateral 
consensus that was built slowly and through fortuitous 
confluence on the nuclear issue.
    We must also anticipate Iran's responses to sanctions, both 
in terms of bandwagoning to try to hedge by developing further 
business and diplomatic ties with Europe and the rest of the 
world, as well as its retaliatory capacity against U.S. Forces 
in the region.
    Like most complex challenges, the problem of Iran has 
resisted quick fixes for nearly 4 decades. American leadership 
will remain essential.
    Thank you.
    [The prepared statement of Dr. Maloney can be found on page 
38 of the appendix.]
    Chairman Barr. Thank you.
    And, Dr. Ottolenghi, you are recognized for 5 minutes.

STATEMENT OF EMANUELE OTTOLENGHI, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Ottolenghi. Chairmen Barr and Pearce, Ranking Members 
Moore and Perlmutter, and distinguished members of the 
committee, I thank you for the opportunity to testify today.
    The Joint Comprehensive Plan of Action, or JCPOA, has 
emboldened Iran. In theory, under the JCPOA, the United States 
can use non-nuclear sanctions to counter Iran's regional 
ambitions and ongoing support for terrorism. In practice, 
however, this measure has been rarely used, especially with 
regards to Iran's ongoing airlifts to the Assad regime and 
Hezbollah.
    The JCPOA lifted U.S. sanctions against Iran's civil 
aviation sector exactly at the time when the sector became 
vital to Tehran's war efforts in Syria. Put simply, the JCPOA 
has made it legal to sell aircraft to airlines that are 
accessories to Assad's war crimes and keep Hezbollah armed to 
the teeth.
    The activities of Iran's aviation sector have exposed the 
inadequacy of the JCPOA caveat that licensed items and services 
must be used exclusively for commercial passenger aviation.
    Currently, at least five Iranian and two Syrian commercial 
airlines are engaged in regular military airlifts to Syria. 
These carriers have been crisscrossing Iraqi airspace since 
2011 but have increased their tempo since the summer of 2015 
when Iran and Russia coordinated their efforts to save Assad's 
regime. Flight-tracking data indicate that from implementation 
day on January 16, 2016, to March 30, 2017, there were 696 
flights from Iran to Syria, only 6 of which were carried out by 
Iran's Air Force.
    In 2011, the Department of the Treasury blacklisted Iran 
Air and Mahan Air because they colluded with Iran's Islamic 
Revolutionary Guard Corps, or IRGC, in these military airlifts. 
It also blacklisted Syrian Arab Airlines in 2015 and Sham Wings 
in 2016 for transporting weapons and fighters to Syria. These 
airlines are not ferrying civilian passengers between Tehran 
and Damascus.
    The two primary Iranian actors in the airlifts are Iran Air 
and Mahan Air, with a combined 345 out of 696 flights, almost 
half of the total.
    Mahan Air remains under U.S. sanctions because of its 
support for terrorism. Iran Air, by contrast, is no longer 
sanctioned, despite its material support to the IRGC and 
Syria's internal repression, despite weapons transfers to Syria 
and the use of deceptive practices to conceal its cargo. The 
U.S. Government delisted Iran Air because of a political 
agreement. There is no evidence that there has been a change of 
behavior.
    It is extremely likely that Iran Air is still an active 
participant in the airlifts. This conclusion is based on the 
following: There is no justification for frequent commercial 
flights to Damascus. Syria is a war zone with little tourism or 
commerce. Yet, it is served almost twice daily.
    Iran Air flies to Damascus twice a week. The flight cannot 
be purchased on Iran Air's booking website or through travel 
agencies, and the booking website does not include Damascus 
among its destinations from Tehran's international airport, 
where the flights usually originate. And, lastly, Iran Air 
flights to Damascus occasionally make unscheduled stopovers in 
Abadan, an IRGC logistical hub for the Syria airlifts.
    Iran Air's participation in the Syria airlifts would make 
the airline eligible for renewed sanctions. Congress and the 
Administration should instruct the intelligence community to 
investigate this. If Iran Air's participation is confirmed, the 
Administration should immediately revoke OFAC's licenses 
authorizing sales of aviation industry items and services to 
Iran Air, resanction the airline, and release its entire fleet.
    That is why Congress should also demand transparency about 
aircraft sales to Iran. The financial terms of the Boeing and 
Airbus deals are surprisingly opaque. If Iran Air is found to 
be ferrying weapons and fighters to Syria, the two 
manufacturers would unwittingly become accessories to war 
crimes. Congress should demand that Boeing and Airbus make 
those details fully public.
    The United States should also renew its focus on Mahan Air, 
Iran's largest commercial carrier and the most active 
participant in the airlift. Existing U.S. sanctions have not 
stopped European and Asian companies from transacting with 
Mahan. It is not that U.S. sanctions are ineffective; it is 
rather that the U.S. has so far declined to impose sanctions 
against those who provide material support to Mahan. It is time 
to reverse that and punish Iranian and foreign providers of 
material support to Syria's airlift and its participants--first 
and foremost, Mahan Air.
    FDD research has identified Abadan as the main IRGC 
logistical hub for the airlifts to Syria. Abadan and other 
airports where flights originate should also be designated.
    And, finally, to conclude, the U.S. also should consider: 
designating the Abadan Refining Company for selling jet fuel to 
the aircraft involved in the airlifts; sanctioning the insurers 
of the aircraft; and targeting the financial institutions 
involved.
    Thank you so much for your time, and I look forward to 
questions.
    [The prepared statement of Dr. Ottolenghi can be found on 
page 52 of the appendix.]
    Chairman Barr. Thank you.
    The gentleman's time has expired.
    And the Chair will now recognize himself for 5 minutes for 
questions.
    Mr. Taleblu, what specific non-nuclear sanctions and 
additional designations do you believe would be most effective 
in combating Iranian sponsorship of terrorism?
    Mr. Taleblu. Thank you very much for your question, 
Congressman.
    The immediate one that comes to mind is to pursue sanctions 
on Iran's Islamic Revolutionary Guard Corps pursuant to 
Executive Order 13224. Getting that listed, I think, is key 
because that is one of the major drivers of Iran's non-nuclear 
threats. Iran's Islamic Revolutionary Guard Corps Aerospace 
Force, for instance, is the force that oversees Iran's 
ballistic missile program.
    Going after the IRGC pursuant to that executive order and 
then asking the intelligence community and the Administration 
for additional targets that liaise with the IRGC and can be 
targeted for being shells for this entity should be gone after, 
both at the statutory level and at the Administration.
    Chairman Barr. Mr. McInnis, on a related note, as you may 
know, Senator Ted Cruz in January introduced legislation 
calling on the State Department to assess IRGC's suitability 
for designation as a foreign terrorist organization.
    What are your thoughts about that? And do you agree with 
your colleague that designation of IRGC under 13224 would be 
prudent?
    Mr. McInnis. Yes. I think for designation as a foreign 
terrorist organization, as an FTO, there is certainly a moral 
argument to make for that. I think from a practical standpoint, 
designation under Executive Order 13224 is most likely 
sufficient to achieve your objectives.
    I think that there is a great consideration, as Dr. Maloney 
pointed out, that as we look at potential retaliation from the 
Iranians, not to say that should stop us from taking any of 
these measures, but we need to be very much prepared for 
potential repercussions insofar as how that may change rules of 
engagement with the IRGC, both at sea and with our forces there 
in places like Iraq and elsewhere.
    I think these are things that we need to be thinking 
through. And so these are areas that I think designation under 
EO 13224 probably gives us what we want, but I am certainly 
very much drawn to the moral argument of designating under FTO. 
And I also agree that that is the pathway that will give us the 
most effect for pulling back on support for terrorism.
    Chairman Barr. Thank you.
    And, Dr. Ottolenghi, Dr. Maloney warned against downplaying 
the dividends of the nuclear deal and alleviating the urgency 
of Iran's nuclear ambitions. But given the forward movement of 
Iran's ballistic missile program, given the tests using 
missiles that are capable of carrying nuclear payloads, do you 
disagree with that analysis or do you agree with that analysis?
    And can you speak to whether or not these non-nuclear 
activities have been emboldened as a result of lingering 
questions about the reliability of the inspections regime?
    Mr. Ottolenghi. Thank you for your question. Two points.
    First of all, I think that when one looks at a nuclear 
program, of course the question of delivery systems is 
essential and a part of a nuclear program. The omission of the 
ballistic missile program from the JCPOA of course indicates 
that this is by no means a comprehensive arrangement, as my 
colleague pointed out in his statement, but it also creates an 
opportunity for the United States to target sectors of the 
Iranian economy that are complicit in the Iran ballistic 
missile program.
    Whether it is the financial institutions that facilitate 
the transactions for procurement, the companies that procure, 
the extracting activities for the raw materials, or the 
transport or the insurance of the vectors that carried the 
technology and the procurement for the missile program, all 
these are areas and opportunities for targeting.
    As for whether the regime has been emboldened, I think that 
that is very clear--not just emboldened but also provided 
additional resources to pursue its most nefarious activity more 
actively and assiduously.
    Chairman Barr. Thank you.
    My time has expired, so the Chair will yield back and now 
recognize the gentlelady from Wisconsin for 5 minutes.
    Ms. Moore. Thank you so much.
    And I thank the panel again. As I expected, we have some 
excellent testimony here. So much information, so little time. 
Let me just start with Mr. McInnis.
    You had a very well-prepared presentation. I was looking at 
your recommendations for the five things we need to do, and I 
was focusing in particular on starving the IRGC's financial 
fuel.
    And so, in that context, would you agree that there might 
be some threat or some problem with the article that I believe 
Mr. Perlmutter entered into the record, where it demonstrates 
that there was a lot of contact between Donald Trump, in trying 
to establish the Baku tower, and not only this Mammadov 
family--would you see that as problematic?
    Mr. McInnis. In that particular incident, even though I was 
asked to comment on that particular situation earlier, I don't 
know the full details of that situation--
    Ms. Moore. Okay. Thank you, then.
    Mr. McInnis. Yes.
    Ms. Moore. Thank you.
    Let me ask you about your ``disrupt and deter Iran's 
ballistic missile program.'' You say that they are not going to 
even give up or meaningfully limit its ballistic missiles. And 
as I look through, just briefly peruse the Iran sanctions, even 
though I think Mr. Taleblu mentioned some things they are 
doing, they are still substantially in compliance. Is that your 
understanding, as well? Even though they are kind of showing 
off, because they have to show their people that they are not 
caving--but they are in compliance. Would you agree?
    Mr. McInnis. This has been the main point of contention. 
Certainly, the issue is with the new language under U.N. 
Security Council Resolution 2231 that implemented the JCPOA, 
the language there insofar as what they are doing with their 
ballistic missile program. That is, they are using their 
ballistic missiles--from their perspective, they are not 
nuclear-capable weapons. And, from their perspective, the new 
language that was used to implement the deal, from their 
perspective, allows them to do what they are doing.
    Ms. Moore. Okay.
    Mr. McInnis. And, unfortunately, not all members of the 
U.N. Security Council interpret that the way we do.
    Ms. Moore. Okay. Thank you for that.
    Dr. Maloney, we have talked a lot about Iran's influence in 
Syria, but would you say that Putin also has a stake in keeping 
Assad in power? And do you think that the Russian banks can 
help facilitate financial transactions to Assad in Syria?
    Ms. Maloney. The Russians are clearly a major player in 
Syria and in preserving and stabilizing the Assad regime. They 
do have distinct interests from those of the Iranians, and, 
clearly, that is an area where both Congress and the 
Administration might usefully try to separate those two 
parties.
    Ms. Moore. Right. And so we need to continue to be vigilant 
and cautious about relationships with the Russians. We are 
focusing on the Iran sanctions, but a workaround could be 
Russia. Would that be correct?
    Ms. Maloney. Russia would be key to any solution in the 
Syrian conflict, and we should be using all of the resources at 
our disposal to try to force the Russians to find a political 
solution rather than participating in what is effectively a war 
crime.
    Ms. Moore. Exactly.
    Okay. I think I have one more question. I think it is for 
Mr. Taleblu.
    Are you concerned that Iran is on the verge of being 
actively weaponizing their missile systems in the near future?
    Mr. Taleblu. Thank you very much for your question.
    I am actually worried about the conventional and asymmetric 
threats that Iran's ballistic missiles pose. This is because I, 
like most Members of Congress, read the yearly DNI statements 
before the body, and I worry that they are continuously 
assessed to be the largest force in the Middle East.
    So, regardless of weaponization, which we should have 
better access to but the Supreme Leader has not allowed 
inspections of military facilities, regardless of that caveat, 
which is a big one, I am concerned about the conventional and 
asymmetric capabilities of this force.
    Ms. Moore. Thank you.
    And thank you, Mr. Chairman, for your indulgence.
    Chairman Barr. The gentlelady's time has expired.
    And the Chair now recognizes the chairman of the Terrorism 
and Illicit Finance Subcommittee, Congressman Pearce of New 
Mexico, for 5 minutes.
    Chairman Pearce. Thank you, Mr. Chairman.
    Mr. McInnis, your report deals more with the economic 
impacts of having, I guess, the IRGC involved in economic 
activities. What is the scope of that? In other words, you say 
about 20 percent of the economy, but is it import/export or 
domestic economy? Tell me a little bit about that. And I have 
several questions, so the brief version would be better.
    Mr. McInnis. Yes, I think that the IRGC--certainly their 
domestic economy, it could be a minimum 20 percent from their 
construction sectors, telecommunications, mining, 
manufacturing. But there is certainly plenty involved in the 
export/import as well, so, you have a full spectrum there.
    Chairman Pearce. Who are their primary trading partners 
from outside the country? And when you study it, do you see any 
difficulties with that part of the economy being diverted?
    Mr. McInnis. Certainly, Iran's major trading partners tend 
to be India or China. On arms sales, it is obviously Russia. 
And, of course, now that the sanctions are down, they are 
trying to grow significantly with the Europeans.
    Chairman Pearce. How about oil sales? What are they doing 
in oil sales since the lifting of the embargo and the sanctions 
on that?
    Mr. McInnis. Oil sales are recovering up to almost pre-
sanctions level, mostly to Asia and South Asia but also 
recovering with Europe quite nicely.
    Chairman Pearce. About how many barrels a day?
    Mr. McInnis. I don't have those right at--
    Chairman Pearce. Do any of you have that information?
    Ms. Maloney. They have hit 3 million barrels a day in 
exports.
    Chairman Pearce. Okay.
    So, on page 4, Mr. McInnis, you talk about reinvigorated 
economic warfare campaign against the IRGC. And what would that 
look like, this reinvigorated economic warfare campaign? What 
would that look like to us nonparticipants, the people who 
don't study this every day? You all would see very minor 
changes; we wouldn't, necessarily.
    Mr. McInnis. I think that we had during the sanctions 
period a fairly aggressive effort, especially prior to the 
negotiations beginning in 2013, we had a fairly aggressive 
effort against the IRGC on a variety of fronts, of which one 
was economics. And I think that there was certainly a decision 
to hold back on--partly tied to fears that provoking IRGC 
reaction would potentially disrupt the diplomatic efforts tied 
to the JCPOA. And I think there is still a degree of that. 
There was, up until the end of the Obama Administration, a 
certain fear of that continuing.
    I think the current Administration is weighing those types 
of policy options of how much pressure can be put against the 
IRGC and weighing potential reactions and being able to 
maintain the deal and what they want to do with the deal. I am 
not sure where those policy debates are right now.
    But I think those are all things that--what we were trying 
to do prior to the negotiations beginning in 2013, I think that 
can be reinvigorated and can be, frankly, made stronger. And 
that can be done against Hezbollah, against the Iraqi Shia 
militia groups.
    Chairman Pearce. Yes, I--
    Mr. McInnis. It can be quite aggressive.
    Chairman Pearce. I get the idea.
    Mr. Taleblu, in 2010 and 2011, Iran was financing Hezbollah 
at about $100 million to $200 million. Where was that money 
coming from? And has that flow increased now after the 
agreement?
    Mr. Taleblu. Thank you very much for your question.
    The most popularly cited figure is $100 million to $200 
million, as you mentioned, and that is pursuant to a 2010 
military power of Iran report produced by the Department of 
Defense. It is the most popularly cited because most of Iran's 
Hezbollah funding, like its illicit funding of other terrorist 
groups, is off the books. You can't necessarily find it as an 
IRGC line item, even though a colleague of mine who did do an 
assessment of ``the IRGC budget'' noted that they are receiving 
a 24-percent windfall in their budget allocation this year. I 
would note, however, that it would be hard to find on Iran's 
official reporting.
    Chairman Pearce. Okay.
    Let me squeeze one more question in. Is it possible to 
know, kind of, where all the streams of funding are coming 
from, or is that a subject that is not easy to penetrate? I 
think you just alluded to that, but go ahead and touch on that, 
if you can.
    Mr. Taleblu. It is challenging but not impossible. I think 
we should definitely task the intelligence community with 
finding these streams.
    You mentioned the funding in Syria, for instance. Hezbollah 
has been marshaled by Iran in Syria. Hezbollah was essential to 
helping bail out the city of Qusayr in 2013 and the siege of 
Aleppo in 2016. So I would assume you would get significant 
funding spikes in those years.
    Chairman Pearce. All right.
    Thanks, Mr. Chairman. I yield back.
    Chairman Barr. The Chair now recognizes the ranking member 
of the Terrorism and Illicit Finance Subcommittee, Mr. 
Perlmutter from Colorado.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    Dr. Ottolenghi, you said that there were coordinated 
efforts, I think were your words, to save the Assad regime 
between Iran and Russia. What did you mean by that?
    Mr. Ottolenghi. I mean that both governments, both regimes 
in Russia and in Iran, are invested in the survival of the 
Assad regime and its continuing control, if not of the whole 
country, at least of part of it.
    Mr. Perlmutter. So I guess one of the things that the 
Terrorism and Illicit Finance Subcommittee deals with are 
sanctions, whether it is North Korea, Russia, Iran, or a number 
of other players.
    In the coordination effort, do you see any assistance by 
Russia of Iran or the IRGC financially as they participate 
either with Hezbollah or Assad?
    Mr. Ottolenghi. Thank you.
    I have seen reports in the media, which I cannot personally 
confirm, of a variety of coordinated activities of this kind, 
particularly transfers of weapons from Russia.
    I also, when I monitor the airlifts from Iran to Syria, I 
do see frequently Russian planes crisscrossing the same air 
corridors. They follow the same routes. I am not in a position 
to tell you whether those planes are just supplying the Russian 
forces on the ground or supporting the Russian aviation 
operations inside Syria.
    We do know from open sources, public reports, that the 
Russians have used one airbase in Iran, so there obviously has 
been some type of transaction there. And I would highly 
recommend that in an intelligence review of the airlifts some 
attention is paid to what Russian Air Force planes are carrying 
to Syria as well.
    Mr. Perlmutter. Thank you.
    And I would turn to the other panelists. Coordination 
between Russia and Iran, particularly with respect to Hezbollah 
and Assad, are you aware of any funding streams from Russia to 
the IRGC or Iran generally?
    Dr. Maloney?
    Ms. Maloney. The Russians play a relatively small role in 
the Iranian economy overall, but they have obviously been a 
long-term important supplier of weaponry to Iran.
    In terms of the management of Hezbollah and of the other 
Shia militias that are fighting under Iranian operational 
guidance in Syria, that is primarily Iranian-run, but clearly, 
there is coordination between the Iranians and the Russians on 
the overall state of the campaign--the Russians primarily from 
the air, and the Iranians primarily on the ground. And that 
coordination extends to Hezbollah and the other Shia groups.
    Mr. Perlmutter. Thanks.
    Would either of you two gentlemen like to comment?
    Mr. McInnis. I would just confirm what Dr. Maloney said and 
also add that what has been fascinating is watching how much 
Iran has learned from Russia in how to conduct and develop new 
forms of warfare as they have begun to do certain levels of 
integration of their campaigns there in Syria and, frankly, the 
fact that the Russians are using Iranian air bases at times to 
launch their air strikes into Syria, which is from an Iranian 
ideological standpoint unprecedented. And it goes to the degree 
of how much the Iranians have had to shift their thinking and 
how they look at Russia as a potential ally.
    And, of course, their long term, as they look at post-
sanctions, conventional weapons sanctions, after the nuclear 
deal, the big investments they want to make in transforming 
their military, they are going to be very Russian-centric on 
that. And that is what I particularly worry about, is that 
could transform the region if they are allowed to do major 
investments with Russia.
    Mr. Perlmutter. Mr. Taleblu?
    Mr. Taleblu. Thank you very much.
    I want to echo most of the sentiments of the panel. High-
level coordination could be seen by the visits of IRGC QF 
Commander Major General Qassem Soleimani's flights to Russia. I 
assume that flight to Russia actually had more of an impact on 
Iranian strategy in Syria than the more public one, where 
President Rouhani recently went to Russia and met with 
President Putin.
    To Dr. Maloney's comment, I actually think Iran and Shia 
militias in general in Syria have a perverse form of what 
Stephen Biddle has called the modern military system. It is a 
perverse form of combined arms, non-Arab Shia militias as 
cannon fodder supplementing Russian airpower. So it is odd to 
watch but horrifying.
    Mr. Perlmutter. Thank you.
    Thanks, Mr. Chairman. I will yield back.
    Chairman Barr. The gentleman yields back.
    The Chair now recognizes the vice chairman of the Monetary 
Policy and Trade Subcommittee, Mr. Williams from Texas.
    Mr. Williams. Thank you, Chairman Barr, and thank you, 
Chairman Pearce and all of our witnesses today.
    Since 2011, Iran has been classified by the Treasury 
Department as a jurisdiction of primary money-laundering 
concern, a finding that is unaffected by the JCPOA. The 
Treasury Department determined that Iran's financial system, 
including the central bank, constitutes a threat to governments 
or financial institutions that do business with these banks.
    Iran is also labeled, alongside North Korea, as one of the 
two high-risk and noncooperative jurisdictions by the Financial 
Action Task Force.
    Last year, in his testimony before our Monetary Policy and 
Trade Subcommittee, Eric Lorber testified that, ``the nature of 
the Iranian economy and the role of the government within the 
economy presents serious risks related to bribery and 
corruption, money laundering, and illicit financing.'' That is 
a combination.
    But despite these multiple financial actions by Treasury, 
Hezbollah, which we know has sophisticated financial expertise, 
continues to exploit the internal financial system. Their 
ability to move and store illicit assets makes them dangerous 
to penetrating U.S. markets.
    Many of these finance schemes flow right through the United 
States, and our ability to combat them remains challenging. So 
some might say, despite these designations, Hezbollah's trade-
based money laundering schemes have continued to expand.
    So my first question, to any of the witnesses today, is 
this: The designation carried no immediate penalty, but it 
imposed additional requirements on U.S. banks to ensure against 
improper Iranian access to the U.S. financial system. So, in 
one of your opinions, has this been an effective designation? 
Any of you?
    Mr. McInnis. I think the designation, especially when it 
comes to--if I am understanding the question correctly--
Hezbollah, in particular, and Iran's deep, deep problems with 
money laundering, this is something that, the more the U.S. can 
do when it comes to exposing the problems of Iran's money 
laundering and toxifying, from my perspective, from the 
international community's perspective, toxifying these assets 
or these financial institutions, so that they are avoided, that 
does benefit long-term. Because, even as Iran finds ways around 
it, it makes it harder for Iran to move money, even if Iran 
still finds ways to get money and Hezbollah finds ways to get 
money. But, again, I know it is extremely challenging to have 
those types of effects that we want.
    Mr. Williams. Okay. Thank you.
    Dr. Ottolenghi?
    Mr. Ottolenghi. Yes, thank you. If I may just add one 
point, at least 20 percent of Hezbollah's annual budget 
actually comes from trade-based money laundering outside the 
region. It comes from Latin America, mainly from the tri-border 
area of Argentina, Brazil, and Paraguay.
    The U.S., through its Treasury designations, has targeted 
entities and individuals associated with Hezbollah involved in 
that type of trade-based money laundering, but those 
designations are more than a decade old. And because of 
collusion, complicity, or just plain negligence by local powers 
in that area of the world, most of these entities and 
individuals are still able to conduct business and remit 
finances back to Hezbollah.
    So I think that the broader point is, within the context of 
the power of designations and sanctions, I think that what you 
need to continue is to have monitoring, enforcement, and 
updating of this information so that compliance can be updated 
all the time and, as Hezbollah finds new ways to pursue its 
illicit financial activities, these designations can catch up.
    Thank you.
    Mr. Williams. Okay.
    Dr. Taleblu, should the new Administration consider any new 
non-nuclear sanctions, money laundering sanctions, cyber export 
controls?
    Mr. Taleblu. Yes. And, unfortunately, I do not have a 
Ph.D., despite my deepest academic desires for one, but thank 
you.
    I actually think that there are a whole host of tools--
military, economic, diplomatic, informational. But on the 
economic side, statutory specifically, we can go after 
ballistic missiles.
    Dr. Ottolenghi mentioned that there is a whole-of-
government approach Iran is taking to develop this potent 
ballistic missile threat. That means institutions that engage 
in research, such as engineering and physics. That means the 
companies that produce the transporter erector launchers (TELs) 
that move Iran's missiles from silo to silo, from mobile 
launchpad to mobile launchpad. That means also going after the 
companies and entities that produce and procure solid and 
liquid fuel--this is the propellant that powers Iran's 
missiles--to go after the companies that produce and procure 
the aluminum tubes and the carbon fiber that actually allow 
Iran to develop these longer and wider-diameter and more high-
strength medium-range ballistic missiles.
    So there is plenty of space. The one of choice, I think, to 
deal with this threat--because Iran's 14 missile tests since 
the deal I think is a blatant violation and something that 
should be addressed more urgently than some of the other 
threats you mentioned. This is one area I think we can do a lot 
of damage.
    Mr. Williams. Okay.
    I yield back. Thank you.
    Chairman Barr. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from New York, Mrs. 
Maloney.
    Mrs. Maloney of New York. Thank you, so much, Mr. Chairmen 
and Ranking Members, for calling this hearing, and I also thank 
all of the panelists.
    My first question is for Dr. Maloney. One of the key 
Iranian entities targeted by U.S. sanctions is the Islamic 
Revolutionary Guard. No sanctions have been lifted on the 
Guard. So business with the Revolutionary Guard remains off 
limits for U.S. companies. The CRS notes, however, that the 
exact relationship between the Revolutionary Guard and Iranian 
corporate or other entities is not always known precisely, 
which means that U.S. or European companies may be 
inadvertently doing business with Iranian companies that are 
fronts for the Revolutionary Guard. That would obviously 
undermine the effectiveness of U.S. sanctions against the 
Revolutionary Guard. What can we do to improve this, and how do 
we get better at identifying Iranian companies with ties to the 
Revolutionary Guard?
    Ms. Maloney. Thank you very much for your question, 
Congresswoman Maloney. This is, I think, an inordinate 
challenge for the U.S. intelligence community. What the Iranian 
economy has done over the course of the past 38 years is 
effectively privatized through crony capitalism. That is not 
limited to the Revolutionary Guard, but the Revolutionary 
Guard's expansion in the economy is very much emblematic of it.
    What this means is that there are hundreds, possibly 
thousands, of spinoff companies, companies that have evolved 
from some part of the official government entity or parastatal 
entities that are formally associated with the Revolutionary 
Guard and moved into what is ostensibly the private sector of 
the Iranian economy. This makes it very difficult to 
distinguish between companies that are associated with the 
Guard formally, companies that are run or managed or work to 
the benefit of those who are former guardsmen who, in fact, 
might cooperate and collude with the Guard.
    We have done an enormous amount of work, and some of my 
fellow panelists here work with organizations that can provide 
names of dozens and possibly larger numbers of companies that 
are associated with the Guard, but there is an almost infinite 
capacity within the Iranian economy to proliferate economic 
organizations that have some connection with the regime in 
power.
    Mrs. Maloney of New York. In America, law enforcement has 
targeted and put a spotlight on beneficial ownership laws that 
allow terrorists and others, gun runners and everyone else, to 
hide their assets by buying assets, and under beneficial 
ownership, they don't have to reveal who that person is.
    I am wondering, is that a problem in the Middle East too 
and in Iran? And is this another way that the Guard is hiding 
money or able to easily access money by quickly selling real 
estate for a million dollars or so and having money for 
weapons? And I would ask you and any of the panelists to answer 
if you would like.
    Ms. Maloney. Let me just make a quick comment on that 
point, which is that what we have seen during the course of the 
year-plus of the implementation of the JCPOA is that the 
elected government within Iran does have an interest in trying 
to marginalize the role of the Revolutionary Guard and the 
economy, and some of the penalties that we have imposed on the 
Guard, including the FATF designation and the government's 
desire to get a clean bill of health from FATF have, in fact, 
assisted the government in trying to marginalize the role of 
the Guard. There have been instances, in fact, with Iranian 
banks reportedly refusing to lend to companies affiliated with 
the Guard.
    And so I think a smart strategy of trying to marginalize 
the role of the Guard and particularly to penalize its economic 
activities would play into what are clearly divisions within 
the regime.
    Mrs. Maloney of New York. Yes. And on the beneficial 
ownership, sir.
    Mr. Ottolenghi. If I may add a point to reinforce what my 
esteemed colleague said and also provide an example which poses 
a dilemma to actually a U.S. company, we at FDD have identified 
an enormous number of IRGC-affiliated companies, but what we 
have seen clearly is that, oftentimes, the companies manage to 
keep well below the radar established by the criteria for 
ownership by the IRGC created by U.S. law and by the standards 
of the U.S. Treasury. In other words, oftentimes, although you 
can't prove 50 percent ownership, you see that they control the 
majority of the board and the chairmanship.
    And here is the example that poses the great dilemma for a 
great U.S. company, and that is namely Boeing. Today Boeing has 
signed--or has announced a deal with Aseman Airlines to sell 30 
737 MAX to the third national carrier of Iran. And here is the 
problem that Boeing will face. The CEO of Aseman Airlines is 
the former commander of the IRGC Navy. He was the commander of 
the IRGC Navy during the Iran-Iraq war when the IRGC Navy was 
trying to sink U.S. ships in the Gulf. He is the former deputy 
minister of defense. He is the former CEO of the Iran Aviation 
Industry Organization, a company, an entity under U.S. 
sanctions still after the JCPOA. He is the former head of the 
IRGC general staff. He is a professor of strategic studies at 
Imam Hossein University, the university of the IRGC that is 
still under U.S. sanctions. And he was Rouhani's first pick for 
Ministry of Defense before Dehghan was appointed.
    This obviously is a great problem. Companies will go into 
the Iranian economy thinking that, because the ownership 
principle is met, they can deal with them, but actually they 
can't, because IRGC--
    Chairman Barr. The gentlelady's time has expired.
    Thank you.
    Mrs. Maloney of New York. Thank you very much.
    Chairman Barr. The Chair now recognizes the vice chairman 
of the Terrorism and Illicit Finance Subcommittee, Mr. 
Pittenger from North Carolina.
    Mr. Pittenger. Thank you, Mr. Chairman, for your excellent 
leadership in this important mission. And I thank each of you 
for being with us today. We really appreciate your commitment 
to this important work.
    Addressing the issue of Section 311 and the JCPOA agreement 
as well, are there any banks, recognizing that there are no 
penalties involved for these--it is not very punitive of what 
has occurred with 311--that are still operating under the SWIFT 
authority to transfer money, that they are going about their 
business as usual?
    No response? Does that mean there aren't any, or we don't 
know?
    Mr. Ottolenghi?
    Mr. Ottolenghi. I would make two points. One is we don't 
know. Three points, actually. One is we don't know, at least I 
don't.
    Two, I would make the point that that is why it is so 
important to ensure full transparency in all of the large 
business deals that are being negotiated and concluded with 
Iranian entities. This is a country that has been under 
sanctions for a decade, has engaged in some of the worst and 
most opaque illicit practices in the financial world. It is a 
country that is still the world's foremost sponsor of 
terrorism. We do deserve to have transparency in the types of 
financial arrangements characterizing the deal. The Boeing and 
Airbus deal are obviously an example.
    And my third point, if you allow me, is not necessarily 
directed to Iran, but Hezbollah. I mentioned that Hezbollah 
finances a lot of its operations from trade-based money 
laundering around the world. A lot of the areas where they draw 
financing from are weak financial institutions. They are 
jurisdictions rife with corruption and sometimes collusion. One 
place that comes to mind, of course, is the Republic of 
Paraguay. I think that the U.S. Government should look into 
these jurisdictions as possible 311 designations precisely for 
the reason that sufficient compliance controls are not in 
place. Thank you.
    Mr. Pittenger. This past year, FATF accepted an action plan 
from Iran to address the deficiencies that were found in 311. 
Do you think this was an advisable countermeasure? Was this an 
appropriate response? And do we anticipate Iran doing anything 
meaningful with their action plan? Yes, sir?
    Mr. Taleblu. Thank you very much. Great question. The FATF 
suspension of countermeasures for 1 year, a period of 1 year of 
review, I think was more political than based on economic or 
Iran's desires to produce more transparency in the companies 
that it owns, be they government of Iran-linked entities or 
private entities. I think the best argument for that would be 
the people who marshal the entities that Dr. Maloney mentioned, 
namely the banks that, in the fall of 2016, decided not to 
lend.
    But other than that, I believe it will be highly unlikely 
that you will see Iran comply with those countermeasures, and 
they might have to be put back on. And I think this is 
something that we should guard against and something that my 
colleagues have mentioned, which is don't suspend conduct-based 
sanctions and conduct-based labels and restrictions purely for 
political purposes.
    Mr. Pittenger. Recently, a Chinese-owned company based in 
the United States, ZTE, was fined a billion dollars for selling 
technology to Iran. What other countries are complicit in a 
like manner that we should be wary of? Yes, sir?
    Mr. Ottolenghi. I don't want to name countries necessarily, 
but I do want to point out that, in my written testimony, I 
submitted what I think is a very comprehensive open-source-
based list of entities and companies that are providing 
material support and services to Mahan Air. Many of these 
companies are based in allied countries, friendly countries to 
the United States. I think that is a perfect example of where 
the United States can put companies and countries to a choice 
not to help a designated entity under 13224.
    Mr. Pittenger. Thank you.
    We are tracking the mining of diamonds in Africa going to 
Dubai and then back to India to be cut and through some measure 
of trade-based money laundering. What awareness do you have of 
this, and what countries would be complicit in this effort?
    Mr. Ottolenghi. Are you asking me specifically or--
    Mr. Pittenger. I am asking the four of you. If you want to 
respond, you have 20 seconds, please.
    Mr. Ottolenghi. I think that, once again, as you know, 
these networks are global. There is an established connection 
between West Africa and illicit trade-based money laundering 
activities by Hezbollah and the tri-border area and, more 
broadly speaking, Latin America. I think that that is where one 
should look, especially at the transport, both by ship and air 
connections, that move the merchandise from point A to point B.
    Mr. Pittenger. Thank you. My time has expired.
    Chairman Pearce. Thank you. The gentleman's time has 
expired.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman, all the 
chairmen and all the ranking members. I think this is certainly 
a very deserving topic for the hearing.
    As part of the JCPOA, we agreed to lift sanctions on 
aviation equipment and aircraft. Specifically, it commits the 
U.S. to allow for the sale of commercial passenger aircraft and 
related parts and services to Iran, provided that licensed 
items and services are used exclusively for commercial 
passenger aviation.
    One of my contacts at the IAEA, Olli Heinonen, told me that 
one of the most dangerous things he did as an inspector in Iran 
was to fly internally in Iran. He said because of the 
sanctions, the quality of the aircraft was very, very poor. And 
the inspectors, to a person, thought they were putting their 
lives at risk every time they flew internally. They are okay 
flying from Frankfurt into Tehran, but if they had to fly 
inside Iran, very big problems.
    Now, as Dr. Ottolenghi has pointed out, today, at about 
4:00, Boeing has announced a $3 billion deal with Iran to 
provide, as you said, 30 737 MAX airplanes.
    Dr. Maloney--and I have heard--we will go back to you in a 
second. This is a big deal for Boeing in its commercial 
aircraft. Do you see any problems in this? I look at the assets 
that Iran has in terms of C-130s and other aircraft. They are 
still flying some of our F-14s that they bought under the Shah. 
If it is military aircraft we are worried about, they have 
that, and they have the ability to buy Russian aircraft as 
well. Is this a good thing for the U.S. or a bad thing?
    Ms. Maloney. I think clearly it is both. I have flown on 
Iranian aircraft inside Iran, and I can share the assessments 
that you shared, that it is quite hair-raising. And the sale of 
passenger aircraft and airline parts was something that the 
Iranian people, that Iranian leaders have talked about and 
attached great importance to. I have never quite understood, 
since it doesn't necessarily help their economy significantly, 
but certainly for ordinary Iranians, it was quite meaningful, 
given the history of commercial air disasters within Iran, but 
as Dr. Ottolenghi has cited, there is clearly some diversion of 
passenger aircraft for non-civilian purposes. The deal does not 
provide an adequate remedy for that. I think we need to 
continue to adhere to our obligations under the nuclear deal. 
Violating the deal would only leave us isolated from our 
diplomatic partners and make us less effective in trying to 
curtail Iran's worst behavior.
    The most effective way that we can respond to the sorts of 
nefarious activities that Iran is undertaking and using its 
commercial aircraft would be to work with our P5+1 partners to 
amend the deal to find specific provisions to add to the deal 
that in fact prevent Iran from undertaking these actions or 
enable us to curtail our sale of passenger aircraft in response 
to the specific sorts of instances that Dr. Ottolenghi has 
described.
    Mr. Lynch. Okay. The other aspect of this is I have always 
felt that having inspectors on the ground in Iran and having a 
tighter assessment of what their capacity is at a given moment 
was much better than what we were doing before, which was sort 
of trying to come up with a timeline, and several of those 
turned out to be completely false and inaccurate. Even our 
Israeli friends, the timelines they gave us turned out to be 
faulty, which is unusual. They usually have excellent 
intelligence. But I can't see how we are worse off by having 
inspectors on the ground there and being able to make that 
determination in a more precise manner. Do you agree, Dr. 
Maloney?
    Ms. Maloney. I do agree. At the end of the expiration of 
the provisions of the nuclear deal, we will have vastly greater 
information about Iran's capabilities and intentions than we 
would have had without it. We are significantly advantaged by 
the continuous presence of intrusive verification and 
monitoring.
    Mr. Lynch. Okay. Thank you. I see my time has expired. I 
yield back.
    Chairman Pearce. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Rothfus, for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman.
    Dr. Ottolenghi, on page 9 of your testimony, you cited a 
story from The Jerusalem Post about Iran smuggling weapons to 
Hezbollah on commercial flights. You also listed 67 service 
providers to Mahan Air in Europe, East Asia, Central Asia, and 
the Middle East. Do you have any concern about the opportunity 
for Iran to smuggle weapons and technology beyond the Middle 
East?
    Mr. Ottolenghi. I do not have any evidence that they would 
be using Mahan Air for smuggling weapons, say, to Europe or to 
Asia, but certainly they have a history of suborning their 
civil aviation sector to nefarious activities, wherever those 
activities might be. Actually, we know it for a fact, because 
that was part of the reason why so many of their airlines were 
designated before the JCPOA, that Iran Air Cargo and other 
operators were being used to ship illicitly procured technology 
from Western destinations back into Iran. So I wouldn't rule it 
out, sir.
    Mr. Rothfus. Again, I would be concerned, given Hezbollah's 
international presence, including Latin America. Would that be 
of any concern for you?
    Mr. Ottolenghi. My main concern when it comes to 
Hezbollah's overseas activities is their deep, enduring 
involvement in all sorts of illicit criminal activities, first 
and foremost drug trafficking. There is an enormous amount of 
open-source evidence, including recent arrests in the tri-
border region involving Hezbollah operatives trying to disguise 
drugs before shipping them overseas to Europe--mainly European 
and Middle Eastern markets. That is certainly the most pressing 
concern, but where you have mechanisms to disguise the shipment 
of drugs, you can also disguise weapons for sure.
    Mr. Rothfus. I want to talk a little bit about the 
announcement today with Boeing. Your testimony indicates that 
Iran has been talking about just replacing its aging fleets, 
and one might think they are arguing this is a way to increase 
their commercial capacity. Do you expect Iran to expand the 
number of nations it has service routes to through all these 
purchases?
    Mr. Ottolenghi. I do expect Iran to expand its commercial 
routes.
    Mr. Rothfus. Where would you expect them to be expanding 
to?
    Mr. Ottolenghi. Again, to go back to the point about Mahan 
Air, Mahan Air has already expanded its routes into European 
destinations, adding several destinations since the JCPOA was 
reached, despite the fact that Mahan Air is under sanctions.
    The problem I see is that a lot of these aircrafts that are 
being used in innocent, benign commercial routes to ferry 
civilian passengers are immediately repurposed once they come 
back to Iran to carry fighters and weapons to Syria or to Yemen 
or to potentially other destinations. They are used to carry 
back the wounded and the fallen in combat, and then, within 
hours, as the photographs showed, they are repurposed back for 
civilian use. That is something that just shouldn't happen. The 
Russians are conducting their own airlift into Syria. They are 
strictly using military aircraft that belongs to the Russian 
Air Force. They do not allow Aeroflot or other civilian 
carriers to participate. That is the very least we should 
expect.
    Mr. Rothfus. Do we know how Iran is going to be financing 
the purchases of these aircraft?
    Mr. Ottolenghi. That is part of the problem. A lot of 
these--by definition, the procurement by sanctioned entities 
was always opaque and hard to detect, but also when it comes to 
the deals that follow the JCPOA that have been based on 
licensing and are seemingly in compliance with the JCPOA, there 
is very limited public information available about the 
structure of the financing, the financial institutions 
involved, the leasing companies potentially involved, and I 
think that it behooves both Boeing and Airbus and potentially 
other aircraft manufacturers to actually come perhaps before 
Congress and make this information public and available. Thank 
you.
    Mr. Rothfus. Mr. Taleblu, you mentioned Iran's 
sophistication with money laundering through oil exports and 
precious metals on page 9 of your testimony. Given the Islamic 
Guard's past support for the Taliban in Afghanistan against the 
United States, is there any evidence of Afghanistan being used 
by Iran as a route for illicit trade and money laundering?
    Mr. Taleblu. Thank you very much for your question. I 
definitely assume so. And I definitely assume that there would 
be, given the drawdown in U.S. forces. It is known that in 
Afghanistan's westernmost city, Herat, where there is a 
population that speaks Dari, that one of the preferred 
currencies is the Iranian rial. I could totally see Iran 
offloading rials into Afghanistan and Iran looking to tap into 
those other networks, particularly precious metals in 
Afghanistan, but it would likely come at a time when it feels 
like it has the least to lose from an engagement with the U.S. 
there.
    Chairman Pearce. The gentleman's time has expired. The 
Chair now recognizes the gentleman from California, Mr. 
Sherman, for 5 minutes.
    Mr. Sherman. Thank you. I would like to bring the 
committee's attention to the No U.S. Financing for Iran Act. It 
passed this committee overwhelmingly, and it passed the House 
by a very significant margin, but it died in the Senate. It 
would provide that we would not allow U.S. banks to finance 
sales of airplanes to Iran. And I would ask the witnesses about 
it, but I think we have even more expertise on this side of the 
room in the sense of, do we really want Bank of America or 
Wells Fargo or Goldman Sachs to be lobbying Congress in favor 
of Iran, because otherwise, Iran may be unwilling or unable to 
pay the $10 billion, the $20 billion that they owe to U.S. 
banks.
    There is a tendency for us to believe in our normal affairs 
that if the lender has control over you--and I have had lenders 
that have had control over me--but in international affairs, it 
is almost the other way. The lender has to beg the borrower, 
please pay. And I have enough lobbyists on the Iranian side.
    I will ask each of our witnesses, is there any reason we 
wouldn't designate the Iran Revolutionary Guard Corps as a 
terrorist organization? And does it make sense to say the Quds 
Force is a terrorist organization, but its parent company, the 
Revolutionary Guard Corps, is not? Does that make any more 
sense than saying Osama bin Laden's right hand is a terrorist 
hand, but his left hand was not? Should we designate? Does it 
make any sense to designate one without the other? We will go 
to the first witness.
    Mr. Taleblu. Thank you very much for your excellent 
question. The United States Government actually had a similar 
debate in 2007, and they were worried about designating the 
IRGC versus the Quds Force, so they took a risk-averse approach 
and only designated the Quds Force. I think that was a mistake 
then, given the role of the IRGC, and I think it remains a 
mistake now. IRGC non-Quds Force assets, such as its ground 
forces, are active in Syria. I think Executive Order 13224 
designation for the IRGC is crucial more now than ever before.
    Mr. Sherman. Thank you for mentioning Syria because the 
face of this regime--or the face it would like the world to see 
is that of smiling, debonair Foreign Minister Zarif. The real 
face of this regime is Aylan Kurdi, that 3-year-old boy on the 
beach of the Mediterranean, who died along with nearly 500,000 
other people as a result of Assad, but Assad would not be there 
today if it was not for Iran.
    Let's go on to Mr. McInnis.
    Mr. McInnis. Yes. As I had stated previously, for moral 
reasons, I support a Foreign Terrorist Organization designation 
for the IRGC, but I recognize, given some of the potential 
repercussions of that at this point in time, an Executive Order 
13224 designation for the IRGC is probably the most appropriate 
route as we assess potential repercussions.
    Mr. Sherman. Dr. Maloney?
    Ms. Maloney. Iran is the leading state sponsor of 
terrorism. It is clear that its military is directly involved 
and complicit in those actions. It doesn't seem obvious to me 
what the designation of the Revolutionary Guard does in terms 
of deterring Iran's involvement in terrorism or deterring the 
IRGC from continuing the actions that it takes. I think that 
the Pentagon has greater influence over Iran's regional 
activities than a designation would have.
    Mr. Sherman. I am a bit confused by the answer, but I will 
go on to the last witness.
    Mr. Ottolenghi. If I may address the question, and thank 
you for your point. I completely agree with the notion that 
sanctioning the Quds Force without sanctioning the IRGC is 
basically making a distinction without a difference. They are 
one and the same. They are part of the same structure. And I 
would make the further argument that sanctioning the IRGC under 
Executive Order 13224, which goes after the terror finance and 
providers of material support to terrorism, would enable and 
open up the possibility of sanctioning hundreds of IRGC 
companies inside Iran. This would be beneficial to the business 
community as it looks into trying to identify legitimate 
interlocutors inside the Iranian economy while staying away 
from illegitimate interlocutors, the ability to designate--
    Mr. Sherman. Let me try to sneak in one more question.
    Dr. Ottolenghi, your testimony includes an annex supplying 
names of service providers that do business with Mahan Air. The 
U.S. has urged countries in Europe and Asia to disallow the 
airline to serve their airports and has applied some secondary 
sanctions to firms involved in aircraft transactions. Yet the 
airlines still operate in countries that are friendly to the 
United States, including Germany, France, and Japan. Is the 
Treasury doing enough, and should we be sanctioning those 
companies that service Air Mahan planes when they do land in 
Germany, France, or Japan?
    Mr. Ottolenghi. With your permission, very briefly, first 
of all, I think it is a very important question to ask Treasury 
what they have done so far to persuade these companies from 
stopping this type of service.
    Second of all, I think that the answer as to the 
effectiveness of these sanctions is very clear. When the United 
States imposed heavy fines on financial institutions that were 
allowing illicit transactions, the financial world got the 
message and stopped Iran from conducting illicit financing--or 
at least introduced very strict compliance standards. I think 
that a similar type of action with fines and penalties imposed 
on some of these companies would send a message across-the-
board. Thank you.
    Mr. Sherman. I yield back.
    Chairman Pearce. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from Utah, Mrs. 
Love.
    Mrs. Love. Thank you, Mr. Chairman.
    And thank you all for being here today. I am going to just 
jump into these questions as quickly as I can.
    Mr. McInnis, this is for you. Under the Obama 
Administration's watch, Russia sold and transferred to Iran the 
S-300 advanced anti-aircraft system. Why do you think that the 
Obama Administration refused to sanction those Russian entities 
under the U.S. law?
    Mr. McInnis. The S-300, those particular entities, in 
essence--and I am trying to remember the history here. I may 
need some help with this, but--
    Mrs. Love. One of the most advanced anti-aircraft systems 
in the world.
    Mr. McInnis. No, no. I am familiar with the S-300. I am 
trying to remember the specific--the companies involved in this 
from the Russian perspective, because this is part of where I 
think our sanctions policies need to be going in the future, in 
particular when it comes to the Russian companies as they look 
toward potentially trying to work around the current existing 
U.N. Convention on Weapons Sanctions, that I worry that we are 
going to need to take very aggressive actions in the future to 
prevent such major advanced technology transfers in the future. 
But I do think that was a particular leverage that we were able 
to use with the Russians during that timeframe to prevent the 
transfer of something that was going to--
    Mrs. Love. Did we miss the opportunity to use efforts to 
actually sanction?
    Mr. McInnis. The thing is that was something that the 
Russians could do at that point in time, and we--
    Mrs. Love. So they weren't--you don't believe that they 
were in violation of the Iran Sanctions Act or the Iran-Iraq 
Arms Nonproliferation Act?
    Mr. McInnis. At that point in time, I think that they 
were--their authority--and correct me if I am wrong here on the 
panel--the Russians were allowed to sell those particular 
conventional weapons at that point in time.
    Mrs. Love. Did you have a--you nodded your head at one 
point--
    Mr. McInnis. I mean, am I off on that?
    Mrs. Love. --Mr. Taleblu. Go ahead.
    Mr. Taleblu. Yes. He is correct. Unfortunately, the Russian 
counterargument to those proposals was they cited the U.N. 
Conventional Registrar of Arms, which, in category 7 omits, 
``ground-to-air missiles,'' of which the S-300 SAM is one.
    Mrs. Love. Okay. And if we are going to--I just want to ask 
one more question, Mr. McInnis. In your testimony, you said 
that one way we can suppress the Iranian military modernization 
and growth is by deterring Russian and Chinese equipment sales 
to Iran. What would those sanctions or efforts look like, in 
your opinion?
    Mr. McInnis. And this is what I was referring to as we move 
forward, is that I am worried that we are going to need, as the 
JCPOA continue--under the implementation, that we are going to 
need to look at sanctioning and targeted sanctions against 
Rosneft and other subsidiaries that the IRGC--or that works 
with the IRGC or firms connected to the IRGC and the Iranian 
defense industry. That is where we need to focus and begin to 
look at secondary sanctions that affect the Russian defense 
industry to prevent Iran from gaining significant advanced 
equipment like that. That is what I am particularly worried 
about. And I think that those are things that we could 
construct here in the U.S.
    Mrs. Love. Mr. Taleblu, since the JCPOA was agreed to, how 
have Iran's efforts to export terrorism changed, in your 
opinion?
    Mr. Taleblu. Thank you very much for the question. I think, 
unfortunately, they have significantly been enhanced. The 
Iranian role, at least in Iraq and Syria and its ``near 
abroad'' has deepened. Iran now uses the argument in Iraq that, 
``You need us more than you need the U.S.,'' which clearly 
isn't true. The U.S. is the one leading most of the strikes 
against ISIS. Shia militias often unfortunately engage in 
sectarian slaughter on the back ends of the cities that U.S. 
Forces combined with the Iraqi Army actually liberate. So there 
actually needs to be a way to keep Iran out of this equation, 
but Iran is able to marshal these arguments and say, ``No, you 
need us; we are in the region longer,'' and they will cite--you 
know, there is a quote from Qasem Soleimani that says, ``We are 
not like the Americans; we don't abandon our friends.''
    So I think now is the time to actually come to the aid of 
states like Iraq, the provincial government of Iraq in 
particular, to deny Iran this argument.
    Mrs. Love. Do you believe that there is a difference 
between conventional ballistic missiles and those which are 
designed to be nuclear-capable, a phrase which exists in the 
UNSCR?
    Mr. Taleblu. Thank you for this question too. This is 
unfortunately complex. The Iranians have used the word 
``designed'' in the resolution to kind of pooh-pooh any 
attempts by the U.S. and the international community to go 
after its ballistic missile testing. I think when we look at 
the word ``nuclear-capable,'' that is a word that comes from a 
specific metric in this international regime--
    Mrs. Love. Right.
    Mr. Taleblu. --the MTCRs, 300 kilometers over 500 
kilograms. So it is range over payload. Most of the missiles 
that Iran has tested since the deal actually meet and far 
exceed that, but I think it is kind of an artificial metric to 
add, because there are many ballistic missiles that can carry a 
nuclear weapon, such as the Lance, which the U.S. sold to 
Israel; such as the Pakistani HATF IX; such as the French 
Pluton, which was deployed during the Cold War. These are 
important munitions that actually can carry a nuclear warhead 
that fall short of that metric, and I think limiting ourselves 
to that metric only concedes the argument to Iran.
    Mrs. Love. Thank you.
    Mr. Chairman, my time has expired. Thank you, Mr. Chairman.
    Chairman Pearce. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Budd, for 5 minutes.
    Mr. Budd. Thank you, Mr. Chairman.
    Mr. Taleblu, one of Iran's advantages, as you allude to in 
your testimony, is to provide weapons that acquire costly 
countermeasures from traditional forces in low-intensity 
conflicts. The U.S., while its allies are often disadvantaged 
by these tactics, has the ability to exert diplomatic leverage 
through additional sanctions in a way that Iran, which is a 
weak economy, does not. The question is, is it fair to think 
about a strengthened, more effective sanctions regime that 
includes additional measures to deny Iran access to the payment 
network as utilizing a primary U.S. advantage? Is that a 
primary U.S. advantage?
    Mr. Taleblu. Thank you very much. That absolutely is a 
primary U.S. advantage, and it is absolutely fair to seek those 
measures, but it is also absolutely fair to seek diplomacy with 
our partners' help to interdict the sales and transfers of 
these weapons too.
    Mr. Budd. So that is a soft power way that we could 
leverage Iran--I guess you could elaborate on that a little 
more how we could go about that?
    Mr. Taleblu. Sure. That it is soft power, I think, hits the 
nail on the head. We could target the entities that actually 
engage in the production or transfer of these weapons. There is 
another Executive Order we have been talking about, Executive 
Order 13224, all of today. There is another one, 13611, I 
believe, which came into force May 2012, and that blocks the 
property and assets of those threatening the peace and 
stability of Yemen. Iranian arms transfers to Yemen have been 
intercepted at least 4 times. There are Iranian antitank 
missiles, copies of Iranian antitank missiles being used in 
Yemen. So we could investigate, does the IRGC or any Iranian 
private entity which facilitates the transfer of weapons to the 
Yemeni theater deserve to be targeted pursuant to sanctions as 
defined in this new executive order?
    Mr. Budd. Sure. So are the benefits the Iranians get as a 
result of this Iran deal strong enough to keep them in the 
agreement if the U.S. dials up pressure in other areas?
    Mr. Taleblu. While it is important to look at both the 
costs and the incentives of Iran for it to keep the nuclear 
deal, I think it is also important to be aware of the domestic 
debates in Iran. Here I have an article from March 10, 2017, in 
a major Iranian newspaper, Kayhan, and the headline is a quote 
from Iran's Deputy Foreign Minister. And I am just translating 
it as I am reading it now, and it says, ``The JCPOA wasn't 
supposed to make Iran's economy blossom.'' So he is basically 
taking the exact opposite of the argument that he is going to 
international banks and to the Western world. Basically, he 
is--the argument he is making to the West is, no, you have an 
investment in the Iranian economy, but as Adam Szubin said, 
``The JCPOA is an agreement, not a cashier's check.'' Just 
because we have agreed to waive sanctions doesn't mean we need 
to go actively advocate on behalf of the Iranian economy. That 
is something that they need to do by fixing their AML laws, by 
making their companies more transparent, and by getting the 
IRGC out of the legitimate private sector.
    Mr. Budd. So if they still have maneuvering room, bottom 
line, because the Iran agreement is so good for the Iranians, 
we could get tough on them and they would still--they wouldn't 
leave?
    Mr. Taleblu. To the best of my assessment, I believe that 
Iran has constantly cited in their domestic press that they 
feel that we need the deal, the United States needed the deal 
more than they do. I believe Mohammad-Javad Larijani, who is 
the brother of Iran's Parliamentary Speaker, made this point in 
the fall of 2016.
    Mr. Budd. The Iran deal hasn't worked. Iran remains the 
world's foremost state sponsorship of terrorism. And they 
capture and humiliate our soldiers. They are first-rate money 
launderers, as we have heard. They test ballistic missiles 
regularly. The IRG is now solidifying its place as one of the 
largest quasi-criminal syndicates, and the list just keeps 
going on. But the theory that Iran was a geopolitical 
equivalent of a lost sheep waiting for the international 
community to stop being mean to it, the theory that the Iran 
deal is based on, has been proven totally false. So are the 
options for additional sanctions you have laid out in your 
testimony, is that an option for the United States to recover 
some ground in light of the total failure of the Iran deal?
    Mr. Taleblu. It is definitely one of the many ways that the 
U.S. should deal with this. In fact, what is required is really 
a whole-of-government approach. I think there has been a 
significant informational leg in the campaign against Iran that 
has been missing, such as we have all been looking at Iran for 
decades now with this combined experience of this distinguished 
panel, but one thing that hasn't been said today is that one of 
the saddest things to see about Iran is the constant 
prioritization of the regime's interest over their national 
interest, over their own narrow ideological interest over the 
interests of their own people. You see it with the Boeing deal. 
You see it with military use of civilian airliners. This is 
something that should be highlighted in that informational 
campaign to supplement U.S. economic sanctions.
    Mr. Budd. Thank you, Mr. Taleblu.
    Mr. McInnis, in the remaining time we have, how would you--
or how do we deter Russian and Chinese arms sales to Iran 
through a sanctions regime?
    Mr. McInnis. Yes. As I had alluded to before, I think, 
targeting increased designations of the IRGC, lowering the 
thresholds, as we discussed before, perhaps down to 25 percent 
and increasingly detoxify IRGC-related defense industries so 
that we have an increased secondary sanctions regime so that 
defense companies that want to work with the IRGC or sell to 
the IRGC particular types of weapons that we designate, we can 
continue to make it--financing and make those types of sales 
more and more difficult for the Russians, Chinese, and others 
to do.
    Mr. Budd. Thank you very much.
    I yield back.
    Chairman Barr. The gentleman's time has expired. And the 
gentleman from North Carolina will be advised that the shot 
clock on the floor was almost exactly in line with his, and so 
the time on the floor has run out like it ran out against 
Gonzaga last night.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Kustoff, for 5 minutes. And be advised we are expecting votes 
at any moment on the Floor. We will try to get in the 
questions, but if not, we will adjourn the hearing. So, the 
gentleman from Tennessee.
    Mr. Kustoff. Thank you, Mr. Chairman.
    Mr. McInnis, we know that last year, there was a payment 
from the Obama Administration of around $400 million on the 
same day or about the same time that Iran released five 
American prisoners. We also know that the Obama Administration 
stated a number of times that it would neither negotiate nor 
pay a ransom. This payment appears to be a contradiction of the 
remarks made by the Obama Administration, and people can judge 
that as they like.
    Specifically, though, is there any evidence that you see 
that Iran used this and any other cash payments following 
implementation of the JCPOA to further or worsen the conflicts 
in the region, such as the civil war in Syria or the conflicts 
in Yemen?
    Mr. McInnis. I believe that the moneys--especially in 
2016--that Iran accrued from the JCPOA, insofar as following 
their budget in particular, you saw a number of these types of 
allocations that particular--what ended up being $1.7 billion 
in total from that settlement. Many of those moneys were 
directed to be used by the IRGC for its overall military 
activities.
    How to discern exactly if that money went to specific 
activities in Syria or Iraq or to support terrorism elsewhere 
is hard to discern, but I think that it is pretty clear from 
analysis of their budget that the moneys that that came out of 
the JCPOA, a good portion of them was very clearly sent to the 
military and to the IRGC for their activities around the 
region.
    Mr. Kustoff. Thank you, Mr. McInnis.
    Mr. Taleblu, yesterday, there was a story that posted on 
The Wall Street Journal website, and it is entitled, ``Syria's 
Civil War Produces a Clear Winner: Hezbollah.'' And I don't 
want to read from the entire article, but if I could: 
``Hezbollah today is stronger, more independent, and in command 
of a new Syrian militia that its officials say is ready to be 
deployed to other conflicts in the region. Hezbollah now fights 
alongside Russian troops, its first alliance with a global 
power. It was Hezbollah that devised the battle plan for Aleppo 
used by Syrian and Russian forces last year, according to Arab 
and U.S. officials who monitor the group.''
    One line that struck me: ``Thanks to money and arms from 
Tehran, Hezbollah now stands almost on a par with Iran as a 
protector of President Bashar al-Assad's government and as a 
sponsor of Shiite forces in Syria.''
    So, if we could, how specifically does Iran sponsor 
terrorism and other illicit activity with groups such as Hamas 
and Hezbollah, and is there any additional evidence that 
suggests Iran has taken additional steps to further destabilize 
the region?
    Mr. Taleblu. Thank you very much for that excellent 
question. I think that observation is key, because having been 
tracking the issue in Iran's war in Syria for a couple of years 
now, I have seen many testimonies where analysts have alleged 
that actually having Hezbollah fight deeper in the Syrian civil 
war could have a long-term positive effect because it would 
discredit them as a Lebanese political institution or a 
Lebanese political force.
    Unfortunately, the exact opposite thing has happened, as 
you had mentioned. In 2007, for instance, there were reports 
that Hezbollah was helping Iran train Shia militias on Iranian 
territory and then deploying them to Iraq. In 2013 through 
2016, as you mentioned, Hezbollah was active helping Assad take 
back territory. In 2015 through 2017, they were reporting that 
Hezbollah allegedly is helping Iran in Yemen. So, in fact, this 
force is growing its strength. It is not weak--it is not being 
diminished at all.
    And while the issue of exact number of payments to 
Hezbollah remains to be seen, Iran has furnished that group 
with everything from C-802 anti-ship missiles to a whole 
variety of different rockets, 107-millimeter rockets, 106-
millimeter anti-tank shells. There is a whole slew of such 
munitions that continue to be sent to groups like Hezbollah.
    Mr. Kustoff. In this Wall Street Journal article from 
yesterday entitled, ``Syria's Civil War Produces a Clear 
Winner: Hezbollah,'' the statement that I just read to you, 
``Thanks to money and arms from Tehran, Hezbollah now stands 
almost on a par with Iran as a protector of President Bashar 
al-Assad's government and as a sponsor of Shiite fighting 
forces in Syria,'' would you agree with that statement? Are 
they equal or almost equal?
    Mr. Taleblu. I continue to see Hezbollah as more of an 
Iranian proxy than anything else. While Hezbollah may have--
    Chairman Pearce. If the Chair could interrupt, we will ask 
for that in writing. Votes have been called. We are down to 10 
minutes. We are going to try to squeeze at least one more 
questioner in.
    Mr. Davidson is recognized for 3 minutes.
    Mr. Davidson. Thank you, Mr. Chairman.
    And thank you all for being here. I appreciate your 
testimony.
    I had a question about Hezbollah's activities, and 
Hezbollah's activities with the drug trade in particular. There 
has been a fair bit of their involvement, and so far that ties 
to Lebanon, but not directly to Iran. And, of course, there is 
correlation. Has there been any successful effort to tie the 
cash flows from the drug trade, particularly with the U.S. drug 
trade, not just in Central and Latin America more broadly, but 
at U.S. border trade? Dr. Ottolenghi?
    Mr. Ottolenghi. Yes. Thank you. It is a very important 
question, and I am very grateful you brought it up. The network 
that deals with drugs is truly global. The cocaine, of course, 
comes entirely from Latin America. It travels to its multiple 
designations, Western markets mainly, but also increasingly to 
the Middle East. And while I can't go into too much detail, 
there is plenty of open-source evidence indicating multiple 
connections between the Hezbollah people in Latin America 
involved in the drug trade on the one hand, operatives and 
cartels trading in criminal organizations in Europe and other 
places in Latin America and potentially all the way to the 
United States moving the drugs, connections with the Iranian 
network in Latin America. And most troubling, the financial 
links lead all the way to the United States. In other words, 
while the drugs may not be moved directly by Hezbollah into the 
United States, into the U.S. market, Hezbollah is using U.S. 
jurisdictions in order to launder the revenues from its illicit 
trade. So there is a threat to the financial integrity of the 
U.S. financial system from Hezbollah's illicit activities in 
Latin America that are linked to the drug trade.
    Mr. Davidson. Thank you.
    And, briefly, could you mention any tools that would be 
helpful that aren't already in place?
    Mr. Ottolenghi. Thank you. I think that one important tool 
is to empower the law enforcement agencies that are chasing 
these cases, especially down in Latin America, where the 
willingness by local government to cooperate is somewhat 
diminished by the level of collusion and complicity that some 
officials in these governments have with illicit activities to 
which Hezbollah is accessory.
    Of course, once again, I bring to your attention the 
ongoing activities of Hezbollah in the tri-border area. In the 
tri-border area, there is an enormous degree of complicity, 
collusion, or just benign neglect from local officials, from 
law enforcement authorities that overlook these activities.
    Chairman Pearce. The gentleman's time has expired.
    Mr. Ottolenghi. Pressure from the United States and its 
Government would be extremely helpful.
    Mr. Davidson. Thank you. My time has expired.
    Chairman Pearce. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Indiana, Mr. 
Hollingsworth, for 3 minutes.
    Mr. Hollingsworth. Thank you, Mr. Chairman. And thanks to 
all of the witnesses for being here today. We have heard a lot 
of testimony and certainly a lot of great information about 
what may need to be done next, but could you walk a step 
further and tell me what success looks like? If you had all the 
tools at your disposal, you were able to put these sanctions 
on, you were able to do these things, what would success look 
like, and how would we measure whether we have been successful? 
And then I will go one step further. And that really goes to 
everybody if each of you wants to answer.
    Mr. Taleblu. I think that is an absolutely important 
question. One measure of success is no Iranian ballistic 
missile testing for the duration of the deal should the deal 
decide to hold. Another measure of success should be marshaling 
sufficient economic pressure to erode the ability for Iran to 
domestically produce some of these systems. Another measure 
could be forcing Iran or coercing Iran to stop sending men, 
money, and munitions to Syria. So while coercion is the primary 
goal, deterrence and punishment could be secondary and tertiary 
goals.
    Mr. McInnis. Yes. I would add to that that certainly you 
can measure that by a shrinking ability for groups like 
Hezbollah and others to be able to project any type of 
terrorist activity worldwide, but also I think that Iran's 
ability to be able to build and increase the reach of its 
proxies and their ability to project any type of weapons 
against us, I think, the increasing arming and ability to move 
their proxies around the region. For me, I want to be able to 
shrink that capacity to move this new integrated militia army 
that Iran has. If it can be broken and shrunk and slowly over 
time be able to be rolled back, that, for me, is what I am 
looking for most importantly.
    Ms. Maloney. The definition of success would be a more 
responsible government in Iran, one that is not interfering and 
sowing violence throughout the region, but a broader definition 
of success would include an end to the conflicts in Syria and 
Yemen, and U.S. support for broader political, social, and 
economic reform across the region.
    Mr. Ottolenghi. I fully subscribe to what Dr. Maloney has 
just said.
    Mr. Hollingsworth. You have the problem I do. As a 
freshman, I go last and so I get to say, ``I agree,'' 
frequently. But is it too much--are we asking too much of these 
sanctions? Many of the answers that you put forth are very big, 
very broad, admirable goals nonetheless, but maybe too far a 
reach for sanctions or any political pressure that the United 
States can provide? Any thoughts on that?
    Mr. Taleblu. You know, I have the pleasure of working for 
Mark Dubowitz at the Foundation for Defense of Democracies, and 
he has coined this phrase, ``Sanctions aren't a silver bullet, 
but they are silver shrapnel.'' And I definitely think there is 
a lot of shrapnel that the Iranian body armor can afford to 
take right now. Again, it should be coupled with a whole-of-
government approach.
    Chairman Pearce. The gentleman's time has expired.
    I would like to thank our witnesses for your testimony 
today and for answering our questions.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing is adjourned.
    [Whereupon, at 4:32 p.m., the hearing was adjourned.]








                            A P P E N D I X



                             April 4, 2017











[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                   [all]
                   


</pre></body></html>
